October 22, 2020

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, DC 20543
Re:

No. 19-351, Federal Republic of Germany, A Foreign State, and Stiftung Preussischer
Kulturbesitz, an Instrumentality of a Foreign State v. Alan Philipp, et al.

Dear Clerk Harris:
In accordance with Rule 32(3) of the Rules of the Supreme Court of the United States,
Respondents submit this proposal to lodge certain non-record materials with the Court.
This case concerns in part the reach of the Foreign Sovereign Immunities Act, 28 U.S.C.
§ 1605(a)(3) (the “FSIA”) and whether a transaction in 1935 that conveyed an art collection
from Jewish art dealers to Hermann Goering and his agents constitutes a taking of property
in violation of international law within the meaning of the statute. Among the issues now
briefed by the parties is the proper historical perspective with which events in 1935 should
be viewed, and to what extent Congress intended to include such takings in the FSIA.
On October 16, 2020, eighteen members of the United States House of Representatives
wrote a letter to the Emily Haber, the Ambassador of the Federal Republic of Germany to
the United States of America.
In the letter, the Representatives address Congressional policy and understanding with
respect to the timeline of the Holocaust, and those Representatives’ concern at the positions
taken by Petitioners in this case. The letter will therefore aid the Court in deciding the issues
before it about the FSIA.
Respondents will promptly deliver a copy of the letter if the Court approves.
Thank you very much for your time and assistance in this matter.

Page 2
October 22, 2020
Very truly yours,

/s/ Nicholas M. O'Donnell
Nicholas M. O’Donnell
Direct line: 617-338-2814
nodonnell@sullivanlaw.com
cc: Jonathan Freiman (by e-mail)

